Department of Health and Human Services

           OFFICE OF
   INSPECTOR GENERAL




         Carrier Fraud Units
                     OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,

is to protect the integrity of the Department of Health and Human Services programs

as well as the health and welfare of beneficiaries sewed by them. This statutory

mission is carried out through a nationwide program of audits, investigations,

inspections, sanctions, and fraud alerts. The Inspector General informs the Secreta~

of program and management problems and recommends legislative, regulatory, and

operational approaches to correct them.





                      Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

The OEI’S Chicago Regional Office prepared this report under the direction of
William C. Moran, Regional Inspector General, and Natalie A. Coen, Deputy
Regional Inspector General. Principal OEI staff included:

CHICAGO REGION                                                HEADQUARTERS

John M. Traczyk, Team Leader                       Jennifer Antico, Program Specialist
Suzanne Johnson, Program Analyst                   Barbara Tedesco, Statistician



To obtain a copy of this report, call the Chicago Regional Office at (312) 353-4124.
Department of Health and Human Services

           OFFICE OF
   INSPECTOR GENERAL




         Carrier Fraud Units
              EXECUTIVE                         SUMMARY


PURPOSE


To evaluate carrier fraud units and identify factors that contribute to and work against

successful program integrity operations.


BACKGROUND


In 1994, Medicare carriers processed over 615 million claims. That same year, carriers

received about 118,000 complaints alleging fraud or abuse. The Health Care

Financing Administration (HCFA) has charged their contractors with the responsibility

of detecting and deterring program fraud, waste and abuse. Both carriers and

intermediaries have set up fraud and abuse units as one element of HCFA’S overall

benefit integrity program. To help defray the cost of investigating complaints, HCFA

provided the carriers with nearly $23 million to fund their fraud units.


We obtained information from 37 carrier fraud units. We examined selected case files

and obtained documentation relating to program integrity operations. We interviewed

292 employees and visited 6 carrier units to carg out in-person discussions. Based on

the information we obtained, we compared carrier performance using the following

five criteria:


       . Accuracy of complaint disposition     . Assessing financial damage
       . Case documentation                    . Internal proactive safeguards
                          . External proactive safeguards

FINDINGS

V&ryfw caniers weresuccessfulin meeting all of our outcome crhiia.

Only two carriers consistently ranked high when we analyzed fraud unit performance
using the five criteria mentioned above. We found that few carrier fraud units follow
case development procedures. Overpayment information is often inaccurate and
information concerning frequency and nature of past problems with providers is often
missing. Despite claims of being proactive in their approach to combating fraud and
abuse, only 14 carriers could provide evidence that they took steps to correct
vulnerabilities they identified in their claims processing systems, policies and
procedures.

The mast @2dive pmgmm htegnly flo~ are fd          in coqpomtions that acconi a high
@only and adi?quate management attention to the jiaud units.

Resources and Organization. Strategic organizational placement of most, if not all,
postpayment functions within the jurisdiction of the fraud units appears to be key to


                                            i
better performance. Effective fraud units are part of a corporate culture that supports
them in hiring and keeping highly motivated and qualified persons. They invested
more in competitive salaries, technology and ongoing staff training.

Staffing. Successful fraud units integrate persons with law enforcement backgrounds
with personnel who have knowledge of claims processes and policies. Analysts,
auditors and statisticians are hired to meet special needs. No one discipline dominates
the successful fraud unit. Less successful fraud units employed staff with backgrounds
primarily from a single prepayment discipline such as provider relations or claims
processing.

Training. Staff at better units receive ongoing training from internal and external
sources. In other fraud units, at least 2 out of every 3 people have had no HCFA,
Office of Inspector General or other outside training on fraud and abuse since HCFA
began funding fraud units in the fall of 1992.

RECOMMENDATIONS:

Concerns regarding the effectiveness of Medicare carrier fraud units are similar to
those discussed in our report entitled “WrveiZZmceand Ufi.buion Review Subsystems’
Case Refivrd to Medicaid Fraud Contrvl Uiub,” 0EI-07-95-OO030. As a resuh, we
believe that a concerted effort addressing both Medicare and Medicaid fraud units is
called for. We are proposing a uniform team approach. We recommend that HCFA,
in consultation with the Office of Inspector General should:

Convene a Medicare and Medicaid fraud and abuse task force to plan and implement
improvements in li-aud unit operations. This would include:

      Clarifying goals and objectives for program integrity efforts.

      Establishing guidelines for developing suspected fraud cases.

      Developing a universal protocol for appropriately   referring fraud and abuse
      cases.

      Coordinating data systems to ensure that data are reliable and consistent across
      all entities in the fraud and abuse fighting network.

      Developing a training program designed to educate program integrity personnel
      on procedures, case referrals and best practices.




                                           ii
Continue to provide support and technical assistance to carriers so they can emulate
those carriers operating successful programs. This can include:

       Encouraging carrier commitments that result in increased resources to combat
       fraud and abuse such as investments in technology and people.

       Suggesting ways of organizing a successful program integrity effort.

       Limiting the role of medical review units in program integrity to those cases
       involving issues of abuse, policy, coverage and medical necessity.

       Rewarding carriers for identifying policy, procedure and systems vulnerabilities
       and implementing corrective safeguards.

       Separating the budget for postpayment activity from the budget for claims
       processing and other front-end operations such as provider enrollment and
       provider relations.

AGENCY COMMENTS

We appreciate all the positive steps   that HCFA has taken thus far to safeguard the
Medicare program and we recognize       the accomplishments of the Program Integrity
Group. We are pleased that HCFA         has concurred with our recommendations and we
look forward to working with HCFA       in their implementation.

We believe that the best approach would be a collaborative one involving HCFA and
OIG, with consultation from high performing State Surveillance and Utilization
Review Subsystem Units (S/URS) and carriers. We suggest that this effort focus on:

  �    Developing and implementing model practices.

  .	   Revising current contractor performance measures that reward carriers for
       overpayment recovexy but not for fraud and abuse referrals or efforts to
       improve claims processing safeguards.

  �	   Identi&ing the most effective practices which carrier and State personnel use to
       eliminate claims processing vulnerabilities that enable providers to defraud
       health programs.

We believe that achieving the goals both HCFA and the OIG have established for
improving program integrity functions at the carriers and in the States can best be
accomplished by these kinds of collaborative efforts. We look fon.vard to working with
HCFA to bring about further measurable change.



                                            ...�
                                            111
                          TABLE                     OF CONTENTS


                                                                                                                        PAGE




EXKUTWE              SUMMARY               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCTION .               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      5


  . Meeting outcome criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


  . Resources and strategic organizational
 placement                            . . . . . . . . . . . . . . . . . . . . . . 10

  . Staffkg      .   . . . . . . . . . . . . . . . . . . . . .�. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    13

  . Adequate and ongoing training                    . . . . .�. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    14

RECOMMENDATIONS                        .......       . . . . .�. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    16

Agenq     Comments           ............            . . . . .�. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    18

Appendix A           Tables Comparing Carriers
                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     A-1

Appendix B: HCFA Response . . . . . . . .
 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1
                         INTRODUCTION


PURPOSE

To evaluate carrier fraud units and identi~ factors that contribute to and work against
successful program integrity operations.

SCOPE

The Health Care Financing Administration (HCFA) contracts with insurance
companies to process medical claims incurred by Medicare beneficiaries. Fiscal
intermediaries process hospital insurance (Part A) claims which cover hospital
inpatient, skilled nursing facility and home health agency services. Supplemental
Medical Insurance (Part B) claims are processed by carriers. Part B covered services
encompass: doctors’ services, diagnostic laborato~ tests, outpatient hospital services,
outpatient physical therapy, outpatient speech therapy, outpatient speech pathology,
home health care and many other health services and supplies not covered by hospital
insurance.

The HCFA has charged their contractors with the responsibility of detecting and
deterring program fraud, waste and abuse. Both carriers and intermediaries have set
up fraud and abuse units as one element of HCFA’S overall benefit integrity program.

During this study, we contacted 37 of HCFA’S 42 carriers responsible for processing
Medicare Part B claims. This number includes the four Durable Medical Equipment
Regional Carriers that process providers’ claims for medical supplies and durable
medical equipment.

BACKGROUND

Medicare losses due to fraud and abuse concern Congress, HCF~ the Office of
Inspector General (OIG) and others. The HCFA and their carriers work together to
detect and deter fraud and abuse through various means. Carriers refer their fraud
and abuse cases to the OIG for development and evaluation and possible referral to
the Department of Justice. The OIG, in turn, works with the Department of Justice
to prosecute these cases.

Medicare carriers process about 615 million claims each year. In 1994, approximately
118,000 complaints alleging fraud or abuse were received. These complaints were
assigned to about 400 carrier employees for screening and investigation. According to
OIG records for 1994, carrier investigations produced approximately 400 cases
involving 1,300 subjects that were subsequently referred to OIG for in depth
investigation.
Since the inception of the Medicare program, HCFA has supported carrier efforts at

safeguarding Medicare payments. Despite these efforts, the General Accounting

Office (GAO) in 1992 reported that the Medicare program was vulnerable to fraud,

waste, abuse and mismanagement. The GAO estimates that nearly $2 million is lost

to fraud and abuse each hour. The GAO report and other recent events have

encouraged HCFA to pursue regulato~ and administrative changes aimed at

correcting flawed payment policies, weak controls and deficient program management.

Most visible of HCFA’S efforts was its financial commitment to supporting carrier

fraud and abuse units. In fiscal year 1994, HCFA provided approximately $23 million

to carriers in benefit integrity funding.


In addition to financial support, HCFA,has undertaken a number of other initiatives in

recent years to correct flawed payment policies and improve program management.

For the first time since the Medicare program began, HCFA established national and

regional positions to focus the Agency’s fraud and abuse efforts and to provide

guidance to the carriers.


One element of HCFA’S revitalized effort to guide carriers to improve their

performance was a change in the way HCFA evaluated carrier performance. Prior to

1994, HCFA evaluated carrier performance by comparing carriers and providing a

numerical score intended to represent how a particular carrier fared against its peers.

In 1994, HCFA took steps to change and improve the process for evaluating carrier

performance. Numerical scores for comparing carrier performance were abandoned

in favor of a new system emphasizing continuous improvement.


The OIG issued a report in 1995 that reviewed HCFA’S new system for monitoring

carrier fraud and abuse unit performance. The report concluded that HCFAS ability

to assess carrier performance had improved but that HCFA had failed to make full

use of the information gathered during the review process to improve carrier ability to

safeguard Medicare payments.1 This current study was undertaken to further

contribute to the improvement of carrier program integrity efforts.


METHODOLOGY


Data and information presented in this report was derived from: (1) a sumey of

carrier fraud and abuse staff, (2) carrier data and other documents, and (3) actual

cases developed by carrier staff involving allegations of fraud and abuse.


Thirty-one carriers were contacted by telephone or mail. We visited six carriers and

talked to fraud and abuse management and staff. Overall, we identified 351

employees whose duties involved the screening of complaints and/or the development

of potential fraud and abuse cases. Of the 351 employees, 292 (83.2%) completed our

written survey, The survey was designed to obtain information about employee work



1 Office of Inspector General, Monitoring Medicare Confracfor f’e~onnunce:   A New Approach, DHHS/OIG   Office
of Evaluation and Inspections, OEI-01-93-00160, August 1995.



                                                         2
experience, the organization of the carrier, its program integrity operations and
procedures. In addition to the written survey responses, we held discussions about
carrier operations and procedures with more than 80 carrier employees.

Survey responses were supplemented with information obtained from managers during
the initial telephone contact and, in some cases, during subsequent telephone contacts.
In addition to our employee surveys, we requested each carrier to provide data and
documentation.     We asked for documentation of fraud and abuse unit procedures and
information on the unit’s workload and accomplishments. Other information was
obtained from HCFA and the OIG, Office of Investigations headquarters and regional
staff. In addition to interviews with HCFA personnel, we also obtained and analyzed
HCFA carrier performance evaluations.

We asked our survey respondents what criteria they felt should be used to evaluate
their fraud unit’s performance. Of the 19 criteria suggested by respondents, we
selected the following 5 criteria to judge each carrier’s performance:

       (1)    Accuracy of complaint disposition.

       (2)    Adherence to procedures for developing and projecting overpayments.

       (3)    Adherence to procedures for documenting frequency of complaints in

              referrals to OIG.
       (4)    Number of internal proactive measures initiated by the fraud unit that
              result in carrier payment safeguards.
       (5)    Number of external proactive measures initiated by the fraud unit that
              increase awareness of schemes to defraud government programs.

We considered two additional performance measures: return on investment and
overpayment recoveries. Although final action to obtain convictions, assess fines and
return overpayments rests with entities other than the fraud units, we thought these
measures were important as a reflection of the units’ contributions to final disposition
of cases and outcomes. We collected data on these measures from the units.
However, after consultation with HCF~ we determined that the data reported might
be unreliable and invalid. Since no uniform reporting requirements for these data
exist, it is reasonable to assume that carrier units might not have the systems in place
to veri~ and validate the data. As a result, we have included no information on these
measures or the data reported to us in this report.

We used the above criteria and ranked each carrier’s performance using information
each carrier provided. When all of the information had been analyzed, we combined
the results in a single table to determine if any carrier(s) had consistently scored better
in each of our five criteria.

We focused on outcomes that had resulted from each carrier’s program integrity
efforts. For example, when carriers claimed to be aggressive in preventing fraud
through systems’ safeguards, we looked for identifiable accomplishments they had
initiated that would decrease Medicare vulnerabilities to fraud and abuse. Whenever
possible, we validated carrier responses by examining other information and data
available to us from the carrier, OIG and HCFA.

We looked for attributes that may have contributed to good performance and then
ascertained the presence or absence of these traits at all the carriers. We looked for
consistency in what carriers told us they did and what they actually did in the more
than 120 case files we reviewed. Whenever possible we have used examples to
illustrate the types of problems we repeatedly obsemed in our review of carrier case
development. Given limited space, we are unable to provide extensive examples of
problems. The examples used in this report were those that we felt best illustrate the
problems.




                                          4

                                      FINDINGS


OUTCOME CRITERIA                     Few carriers were successful in meeting all of
our outcome criteria.

Cri&ria1: Accuracy of Cbm@int Dhpudik

The cases we reviewed show that carriers differ significantly in their ability to properly

identi~ potential fraudulent activity. Of the cases-we reviewed, we found- that-2 out of

3 cases referred to the OIG were inadequately developed or did not involve a

violation of criminal or civil statute. We also found that 58 percent of the reviewed

cases resolved by carriers administratively were incorrectly handled. Cases handled

administratively were frequently inadequately developed. Cases that we felt showed

strong evidence of fraud or abuse were not referred or discussed with the OIG.

Carriers routinely sought to resolve complaints by contacting providers.


Our case reviews show that carrier procedures for noti&ing providers of a potential

overpayment need to be examined so as to avoid the loss of millions of dollars in

potential overpayments. Particularly troublesome were significant overpayment

recove~ cases that were not discussed with OIG before the carrier init;ated recovery

action and which appeared to involve fraud. For example, consider the following case:


                The case file showed extensive documentation of contacts with beneficiaries, thew
      relatives, the vast majority of whom claimed not to have received the service billed and not
      to have any of the conditions indicated on claims submitted to Medicare. Contact with
      the benejiciatis’ attending physicians also indicated that the beneficiaries had none of the
      conditions stated on the claims. Further development by the cam-er revealed that none of
      the physicians whose names appeared on the cerhjicates of medical necessity had heard of
      the patieng or the provider. All denied having signed the cernjicates of medical necessi~.
      The carrkr’s development also dkclosed ‘unverifiable- tiformation on the provklerb
      applican”onfor a billing number.
                i%e case was never dkussed with the OIG, instead the carrier sent a letter
      requesting the provkkr rejimd the calculated overpayment. The letter was sent to the
      providerk out-of%tate post o~e box articulating the information mentioned above as the
      bases for the cam”er’sovequayment decision. A second notice regarding the overpayment
      was sent several weeks later. When the second notice was returned indicating the
      addressee had moved and lejl no forwarding address, the case was then referred to the
      OIG. The premature alert of the provider makes it extremeiy dificult for the OIG, or any
      law enforcement agenq, to pursue thk case.

The above case illustrates a problem we encountered repeatedly during our case file
reviews. The case development clearly shows false statements, billing for sewices not
rendered and other criminal statute violations. Carriers are to refer cases involving
potential fraud to the OIG for possible criminal action if the case meets OIG referral
criteria. Carriers should contact the OIG and discuss all cases involving fraud issues
before initiating recovery action.



                                                  J
Critaia2    Asse&tg Fiiumcia 1Damages.

Carriers didnotconsistently    develop payment information. One fourth of the cases

we reviewed contained no information about the total payments made to the provider.

In nearly half of the cases, carrier staff did not accurately determine the amount

overpaid. The data suggests that carriers may not be doing expanded reviews and

projecting overpayments accurately when an allegation is substantiated. The cases we

reviewed provided further evidence that expanded sampling was not always done when

an allegation of fraud or abuse was substantiated.


Of the cases we reviewed, only 1 out of every 3 cases referred to the OIG contained

accurate overpayment information. One out of every 5 cases either over or under

stated the actual overpayment, and 1 of 5 cases did not provide any information about

the potential dollars lost by the program or dollars paid to a provider in a specified

time period. In one case the carrier reported total dollars paid to a provider as the

potential overpayment. At issue in the case were specific procedure codes, not the

entire practice. If the carrier had properly determined the potential overpayment for

the procedure codes in dispute, the amount reported would have been considerably

less than stated on the referral to the OIG and the case would not have met OIG

regional office criteria for referral.


Two out of 5 reviewed cases developed for overpayment recovery and not referred to

the OIG were incorrectly handled. During our review we noted that the overpayment

on these cases was frequently understated because the carrier did not conduct a

sample upon which to project additional payments, or did not develop for additional

overpayments when the provider was the member of a group or had multiple provider

numbers.


Failure to provide accurate payment and overpayment information can waste limited

carrier and law enforcement resources. With current emphasis on presenting cases to

the Justice Department early to determine interest in a case, one can readily see the

consequences of inaccurate payment and overpayment information on resources.

Likewise carrier failure to adequately audit all related billing numbers and failure to

utilize adequate sampling methodologies results in inappropriate overpayment

recovery actions that should have been referred to law enforcement agencies.


During our discussions with OIG special agents, we were told of carriers pursuing

overpayments on cases that had not been discussed with the OIG and that they

believed had significant prosecutive merit. The cases we reviewed support what we

heard from OIG special agents. In many of the cases, the OIG was not consulted

before overpayment actions were initiated.


Cri@ia 3:   Case DoamemZtim


Of the 37 carriers participating in this study, only 5 consistently indicated information

about frequency of problems with a specific provider. Documentation on the number



                                           6
of complaints alleging fraud or abuse is required by HCFA. Furthermore, 9 out of 10
sumey respondents indicated that this information was readily apparent when a case
was assigned to them.

Despite written procedures and claims that documentation on the number of
complaints against a provider is readily available, such information is not surfacing in
cases being developed by carriers. The absence of this information may affect law
enforcement agency decisions on whether to pursue a full scale investigation of a
provider. Furthermore, failure to mention previous problems may prove detrimental
to an investigation or prosecution if the existence of other carrier files surface at a
later date and are found to contain information that compromises the case. We were
told by OIG, Office of Investigations respondents that this has happened on more than
one occasion. Not only is this embarrassing to law enforcement agencies, it damages
relations with Assistant United States Attorneys and the relationship between the
carrier and law enforcement agencies.

We frequently found contradictory statements in the files we reviewed concerning
frequency of complaints. To illustrate, consider the following statements found in one
carrier’s case development file: “This is our first problem with Doctor X.” Among the
other information in the file we came across this statement: “Doctor X and problems
with his patterns of practice are well known to us.” On the other end of the spectrum
are cases where the frequency is stated but no information is provided about the issues
involved and their resolution.

Ctieria 4: In&mal Reactive Safkgmwrls

Our fourth criteria compared carriers by the number of internal proactive measures
initiated by their fraud units. We considered an action by the fraud unit to be
proactive if

  �	   it identified a specific policy, system function or procedure vulnerable to fraud
       or abuse, and

  �	   made specific recommendations     on how to eliminate or reduce the identified
       vulnerability.

Our analysis of internal proactive measures indicates that less than half of the 37
carriers (4296) that participated in this study had identified vulnerabilities and initiated
changes in their claims processing and other operations. Since October 1992, there
have been less than 100 such changes recommended by 14 of the 37 carrier fraud units
in this study. As Table A shows, the majority of the recommendations designed to
make it harder to defraud government programs were initiated by one carrier. While
many carriers claim to have initiated steps designed to reduce the likelihood that their
systems will be defrauded, only 14 could provide evidence of an identifiable action
designed to curb a specific vulnerability in their system.
Of the 37 carriers in this study, only 3 had initiated more                     Table A
than 3 corrective actions. Five fraud units mentioned
strengthening the process for assigning provider numbers
to independent physiological laboratories. Four reported
implementing prepayment edits upon discovering how a
provider, or providers, were circumventing their system
safeguards.

Our case review indicates that procedure, policy and
system shortcomings are often identified by fraud unit
staff during case development. We documented 19 such
vulnerabilities, including payments to nop certified
laboratories and duplicate payments that were not
addressed. We are unsure as to why these vulnerabilities
are not being addressed.

Oiteria 5: lhlemal       hnzctive Safeguanis

Our final criteria measured the number of fraud alerts that                      Table B
had been generated by each carrier. We chose to measure
fraud alerts because they were a quantifiable, proactive
product containing information helpful to other carriers in
safeguarding program funds.2

Of the 37 carriers in this study, 19 reported to us that they                    II   FF     11211
had submitted at least one fraud alert to their HCFA
regional office for consideration. Our review of carrier
files and other information collected during this inspection
found that many of the cases involved issues and problems
that we felt should have been, but were not, brought to the
                                                                                                       4
attention of the regional HCFA office and other carriers.

As with other criteria we evaluated, more successful fraud
units also are more prolific producers of fraud alerts. These units not only identify
internal weaknesses ‘but als; actively seek to disseminate information about their
findings to HCFA and other carriers.

We were told by a number of respondents that the current process for submitting and
getting a fraud alert issued is so cumbersome and lengthy that it discouraged them
from initiating such efforts. Respondents indicated that a less formal vehicle is needed
so that carriers can communicate information quicker about problems they are
experiencing.


2 Our evaluation of proactive measures did not take into consideration beneficiary, provider and employee education
programs being conducted by all carriers. The HCFA requires carriers to conduct education prograrny therefore, we
considered them to be the baseline on which proactive measures designed to prevent fraud and abuse should be built.


                                                       8
Surnnuuy of the Five CMeria Used to iUeasiue Pe&mancc

The five outcome criteria we used to compare carrier performance are summarized in
Table C. The table shows that some carrier program integrity efforts are consistently
better than their peers. More importantly, the table shows that only a few carriers
have well rounded and successful program integrity efforts. We compared
these carriers with others and analyzed information available to us in an effort to
determine why their performance is better. Tables showing how all of the carriers in
this study ranked can be found in Appendix A.

Table C



II                     OIG SELECTED OU’KOME ~                                       II




                                        9

RESOURCES & ORGANIZATION.                The most effective program
integrity efforts are found in corporations that provide adequate resources
and strategic organizational placement.

Increused Resoumes

Successful fraud units have access to corporate resources. These resources include the
support of the highest levels of management from all sectors of the carrier’s business.
Corporate support enables successful units to obtain adequate financial support which
appears essential to establishing a stable and effective program integrity effort.

Adequate program integrity budgets enable fraud and abuse managers to create
higher paid positions that help attract and keep highly motivated and qualified staff in
the unit. As one of our survey respondents commented: “Well-trained analysts will be
less likely to leave this position for a better paying job if more attention is given to
maintaining salaries at a level equal to the importance of this job.” More successful
fraud and abuse units operate in an environment where each person working in
program integrity can advance their careers and salary potential without leaving the
unit.

Effective fraud units occupy a distinct and secure space within carrier operations that
serves, not only as a constant reminder to all employees of the carrier’s corporate
commitment to fraud and abuse, but also protects the confidentiality of sensitive work.
Clearly defined, distinct and secure space also seines to differentiate
postpayrnent/program integrity activities from front-end, customer oriented claims
processing areas.

Among the resources available to successful fraud units is state-of-the-art technology
that enables them to do their job efficiently and effectively. They have access to on-
line semices, beepers and cellular telephones. They have their own facsimile machines
and reproduction equipment. Each fraud unit and program integrity employee has
their own personal computer. In addition to personal computers, successful fraud
units have invested in mainframe hardware and powerful user-friendly software that
enables them to analyze large data sets quickly and easily. Coupled with on-line
access to claims processing information and their own historical claims processing data
on storage media, successful fraud units have the capacity to run their own data for
analysis.

At some less successful carriers, fraud unit staff share telephones and/or personal
computers. Some fraud units send and receive sensitive facsimile information and
reproduce documents at a central mail room. Sharing these resources with other
carrier operations may result in the loss of essential information or compromise
evidence chain of custody. Furthermore, the ability to analyze data at many carriers is
limited not only by the lack of hardware and user-friendly software, but also by the
lack of access to the raw data.



                                         10

Slwt?gikOlganhltbnal    Rlcenlent

Carrier operations can be viewed as falling into two distinct groups: prepayment and
postpayment operations. Prepayment operations have a customer service orientation
with functions geared to assist patients and providers. Postpayment operations, on the
other hand, consist of investigations, audits and other program integrity initiatives
designed to protect the Medicare trust funds. Inquiries and audits designed to ensure
that proper payments are made generally are not well received by providers.

The most successful fraud units operate in an environment where most, if not all,
postpayment functions have been consolidated into the carrier’s overall program
integrity efforts. The fraud unit, through the fraud unit manager, has the primary
responsibility for overseeing and directing all carrier postpayment and program
integrity efforts, including all staff responsible for:

       conducting routine or mandated audits of providers;

       identifying, analyzing and resolving systems’ vulnerabilities that enable providers
       to circumvent payment safeguards;

       the analysis of claims data aimed at detecting potentially aberrant providers;
       and,

       receiving, controlling and resolving allegations of fraud and abuse.

Successful fraud units report directly to the highest levels of corporate management.
Recognized experts in health care fraud, and many of the people we spoke to during
this inspection, believe that this arrangement provides for a more objective assessment
of the needs and recommendations of postpayment/program integrity. It recognizes
the dichotomy that exists between program integrity goals and front-end claims
processing goals. It provides the highest levels of management with information that
can be used to improve day-to-day operations from the divergently different
perspectives of front-end operations and postpayment operations.

More effective fraud units have established a clearinghouse or other specialized unit
responsible for controlling and for triaging all postpayment activity. Clearinghouses,
under the control and guidance of the fraud unit, determine whether referrals to the
program integrity unit are appropriate. Inappropriate referrals are returned to the
originators for resolution (i.e., beneficiary/customer service). Case controls and files
are established for appropriate referrals and an initial analysis is conducted to
determine whether the issues involved are fraud, abuse or both. Allegations involving
only medical necessity are referred to medical review for development. Allegations
involving fraud and abuse are developed to determine whether or not the allegation
can be substantiated. Substantiated allegations involving providers with whom the
carrier has had previous problems are referred to investigators if they meet frequency,
monetary and other guidelines.


                                           11
Effective program integrity programs use their fraud unit investigators to develop or
direct the development of cases involving issues of fraud or abuse. Case development
conducted outside the fraud unit is done at the discretion and under the direction of
the fraud unit. Control over the sensitive information developed during carrier
investigations, and the proper conduct of all carrier employees involved in developing
such information, is critical to prosecution and overpayment recovery. At one
successful carrier, employees outside the fraud unit who are asked to assist in
evaluating or developing a case with potential for referral to the OIG must sign a
statement that the information they gain will not be discussed or otherwise divulged to
anyone.

Fraud units that do not control case development and the role played by other carrier
operating components in developing potential fraud and abuse cases, run a high risk of
having these cases compromised. During our case review, inappropriate development
of cases with potential prosecutive merit occurred frequently when prepayment and
claims processing components became involved in the development of complaints
alleging fraud. Medical review units in particular appeared to routinely make contact
with potential subjects and readily accept provider explanations. Medical review units
often initiated recoupment action before the case was discussed with, or declined by,
the OIG. The following case summary illustrates a common problem:

                This case was assigned to the fraud unit and involved an ophthalmologist
      misrepresenting services and billing for services not rendered 7%ej?aud unit developed
       information on 37 claims and determined a potential overpayment of $1 ~ 000.00.
      Following internal procedures, the case was sent to medical review for medical necessiq
      development.
                The medical review unit report states that thti ophthalmologzkt has a histo~ of
      miwepresenting services and undocumented services dating back to 1988. The eract
      number of prior problems is not stated in the file nor k there any information about any
      prior educational contacts.
                The medical review unit informed the fraud unit that they should not pursue the
      fraud ikues because they know the ophthalmologist and when problems have suflaced in
      the past they have always been clerical errors for which the provider has always willing~
      made restitution. The medical review unit undertook no additional development. l%e
       OIG was not consulted about potential j?aud issues. The case was resolved with a request
      for repayment of the overpayment determined by the j?aud unit.

The involvement of medical review staff sometimes changed the complexion of the
case from the initial allegations of fraud to issues involving medical necessity.
Fraudulent activity was not addressed, inadequately addressed or subverted by raising
immaterial abuse, medical necessity or overutilization issues that overshadowed or
obscured the more serious fraudulent activity. Effective fraud units prevent this from
happening by controlling and directing development of all cases alleging fraud or
abuse.
STAFFING. Successful fraud units have an effeetive mix of investigators,
auditors, statisticians and analysts.

Successful fraud unit staff bring diverse backgrounds and skills to the job. They have

a good mix of disciplines. Successful fraud units and program integrity efforts

integrate persons with law enforcement backgrounds with personnel who have

knowledge of claims processes and policies. They also add analysts, accountants and

statisticians to compliment their staff. No one discipline dominates the program

integrity or fraud unit. Personnel recruited from carrier front-end operations such as

claims processing are selected not only for their knowledge of front-end operations

and polices, but for their commitment to aggressively combat fraud and abuse.


Program integrity units that can keep employees perform better than units with

constant turnover. Turnovers, according to people we interviewed, have severely

hampered fraud and abuse efforts. We heard complaints about the replacement of

persons considered to have a grasp of the job and with good working relationships

with OIG and other law enforcement agencies. It is alleged that some carriers

perpetually reorganize staff, thereby, never developing a cadre of individuals proficient

at the job. At one carrier, five different people have headed up the fraud unit in the

past 12 months.


Fraud unit staffing turnovers adversely affect the quality of case development.

Carriers have been required to dedicate some staff to combat fraud and abuse

virtually from the inception of the Medicare program nearly 30 years ago. Given how

long carriers have played a program integrity role in the Medicare program, the

current fraud unit staff at many carriers appears to lack investigative experience.


Our analysis indicates that half of the fraud unit staff have less than 2 years experience

in the unit. A third of the staff have less than 1 year’s experience and nearly 1 in 5

employees has less than 6 months experience. The average fraud unit employee has

been employed by the carrier for about 9 years.


The number of people working in the fraud units varies by carrier, ranging from 1

employee to over 50 employees. Nine units have two or less employees and a third of

the units have five or less employees. We found little or no relationship between the

size of the fraud unit and claims processed, dollars paid or operating budget.


The variance in fraud unit size reflects a number of factors including the carrier’s

organizational structure and the number of program integrity related functions being

carried out by, or under the direction of, the fraud unit. The number of employees

and the placement of postpayment activities in the carrier’s organizational structure

appears to have an effect on the quality of a carrier’s program integrity efforts.

Successful prevention, detection, deterrence and prosecution efforts clearly require

adequate staff.





                                           13

Nine out of 10 people working in the fraud units came to the unit from the carrier’s
front-end operations. At some less successful fraud units, all of the employees come
from front-end operations. Sixty percent came to the fraud unit with only beneficiary
service and/or provider relations experience. Less than a third of the fraud unit
employees have experience in the fraud and abuse unit’s predecessor called program
integrity or in Federal, State or local law enforcement.

The inability of fraud units to attract and keep staff may affect the quality of their
referrals. We have heard that positions in the fraud unit and other postpayrnent
areas are among some of the lowest paying jobs at some carriers. One carrier
employee told us that a position in the fraud unit is a “dead end job.” Another
remarked that “you get what you pay fqr.” And still another commented that “Well-
trained analysts will be less likely to leave this position for a better paying job if more
attention is given to maintaining salaries at a level equal to the importance of this job.”

More successful fraud units have stable management and have policies designed to
keep staff long enough to become proficient at their job. One carrier requires new
fraud unit employees to sign an agreement that they will remain with the unit for at
least 3 years.

Constant staff and management turnover also appears to hamper training initiatives.
Some people responsible for training carrier fraud unit managers and staff expressed
frustration at the frequency of staff turnovers. They felt that the time and effort they
had spent in preparing for training was lost when staff were re-assigned shortly after
attending the training course.


TRAINING. Successful fraud units provide their staff with adequate and
ongoing training.

Our survey respondents had, on average, 9 years of experience working for the carrier,
however, half have less than 2 years experience working in the fraud unit and a third
have less than 1 years experience. Though knowledgeable about Medicare coverage,
billing and reimbursement criteria, and carrier operations, they may lack training and
experience in investigative techniques. Their short time on the job deprives them of
the experiences and the insights investigators develop through years of working myriad
fraud and abuse situations.

Better fraud and abuse units not only have more stable staff but better trained staff.
Staff at better units receive more training each year than their peers at other carriers.
They often have formal training plans that document past training and identi@
individual training needs. Forty percent of our survey respondents have had less than
8 hours of training since January 1, 1994. That equates to less than 1 hour of training
a month. Only 1 out of every 4 persons working in the carrier fraud units has had
more than 40 hours of training since Janua~ 1994.



                                           14

More than half of the employees who responded to our survey believe that their
training needs have not been adequately met. Two out of every 3 people working in
the carrier fraud and abuse units have had no HCF~ OIG or other outside training
on fraud and abuse since HCFA began funding fraud units in October of 1992. This is
a marked difference from responses we received from employees of more successful
fraud units.

Staff turnover may explain why 25 percent of the fraud unit employees have had no
training. Staff at better units receive training from internal and external sources while,
at least 2 out of 3 employees at other units have no training from outside sources.
Our sumey responses indicate that 75 percent did receive in-house training. At some
carriers this training is conducted by medical review, provider relations and other
operating component staff.

Better performing fraud units ensure that all of their employees receive direct training
from inside and outside sources. Staff are required to participate in a fixed number of
hours of training each year. Whenever possible staff are sent to outside training and
conferences designed to provide information on how others have: prevented abuse of
their systems, educated providers, detected fraudulent and abusive providers within
their system, and successfully prosecuted providers. Better fraud units encourage
hands on experience, conference attendance, peer training and participation in
meetings with OIG investigators and other law enforcement personnel.

Analysis of survey responses shows that half of the people currently working in the
fraud units expressed no interest in training related to skills needed to combat fraud
and abuse. Of the half who did express an interest in training related to fraud and
abuse skills, they indicated a desire for training in the following areas: (1)
investigative knowledge and techniques (i.e., rules of criminal evidence, analysis
techniques), (2) interviewing techniques, and, (3) State and Federal laws and
regulations (i.e., the Stark bills and Safe Harbor regulations involving joint ventures).
About 10 percent of our survey respondents indicated they had not received training
and that they had no desire to take such training.




                                            15

                   RECOMMENDATIONS


Efforts by the OIG and HCFA to identi& and combat Medicare and Medicaid fraud
and abuse have intensified over the past several years. As part of these efforts, the
Department is piloting a demonstration program entitled Operation Restore Trust
(ORT). Under ORT the OIG, in partnership with HCF& emphasizes interdisciplinary
teamwork with other State and Federal agencies as an important component for
enhancing fraud and abuse activities.

Concerns regarding the effectiveness of Medicare carrier fraud units are similar to
those discussed in our report entitled “Szuveillance und ZX&ation Review Suhystemr’
Case Refemdh w iUidicakl Freud Control Uni@” OEI-07-954XW30. As a result, we
believe that a concerted effort addressing both Medicare and Medicaid fraud units is
called for. We are proposing a uniform team approach. We recommend that HCF~
in consultation with the Office of Inspector General should:

Convene a Medicare and Medicaid fraud and abuse task force to plan and implement
improvements in fraud unit operations. This would include:

       Clari&ing goals and objectives for program integrity efforts.

       Establishing guidelines for developing suspected fraud cases.

       Developing a universal protocol for appropriately   referring fraud and abuse
       cases.

       Coordinating data systems to ensure that data are reliable and consistent across
       all entities in the fraud and abuse fighting network.

       Developing a training program designed to educate program integrity personnel
       on procedures, case referrals and best practices.

Continue to provide support and technical assistance to carriers so they can emdate
those carriers operating successful programs. This can include:

  ��   Encouraging carrier commitments that result in increased resources to combat
       fraud and abuse such as investments in technology and people.

              Provide sufficient resources to support program integrity efforts including
              secured space, facsimile and photocopy equipment, computer hardware
              and software and other technologies.

              Pay persons working in program integrity salaries comparable to those in
              other areas of carrier operations.



                                          16

Suggesting ways of organizing a successful program integrity effort.

       Develop an independent program integrity organization within their
       operations that reports directly to a sufficiently high level of corporate
       management.

       Consolidate all postpayment functions under the control of the fraud
       unit manager.

       Triage all allegations of fraud and abuse through a centralized
       clearinghouse, properly trained to identi~ fraud and abuse and under
       the control of the fraud unit.

Limiting the role of medical review units in program integrity to those cases
involving issues of abuse, policy, coverage and medical necessity.

       Medical review    units should not be involved in cases alleging fraud
       unless they are   requested to assist in the development of a fraud case by
       the fraud unit.   In no fraud case should the medical review unit be
       responsible for   settling or determining the closing action.

Rewarding carriers for identi&ing policy, procedure and systems vulnerabilities
and implementing corrective safeguards.

Separating the budget for postpayment activity from the budget for claims
processing and other front-end operations such as provider enrollment and
provider relations.




                                    17

                         AGENCY COMMENTS

We appreciate all the positive steps that HCFA has taken thus far to safeguard the
Medicare program and we recognize the accomplishments of the Program Integrity
Group. We are pleased that HCFA has concurred with our recommendations and we
look forward to working with HCFA in their implementation.

We believe that the best approach would be a collaborative one involving HCFA and
OIG, with consultation from high performing State Surveillance and Utilization Review
Subsystem Units (S/URS) and carriers, to improve program integrity activities at the
carrier and State level. We suggest that this effort focus on:

  .	   Developing and implementing model practices to help carriers and S/URS
       decide which cases should be developed for medical review and overpayment
       recovery or for referral for fraud. In addition, existing protocols should be
       implemented for referral of fraud cases to appropriate investigative entities (the
       OIG for Medicare cases and Medicaid Fraud Control Units for Medicaid
       cases). We believe that together we can increase overpayment recovery
       amounts and increase the number of successful prosecutions by law
       enforcement agencies.

  .	   Revising current contractor performance measures that reward carriers for
       overpayment recovery but not for fraud and abuse referrals or efforts to
       improve claims processing safeguards.

  �	   Identifying the most effective practices which carrier and State personnel use to
       eliminate claims processing vulnerabilities that enable providers to defraud
       health programs.

We believe that achieving the goals both HCFA and the OIG have established for
improving program integrity functions at the carriers and in the States can best be
accomplished by these kinds of collaborative efforts. We look forward to working with
HCFA to bring about further measurable change.

The full text of HCFA’S comments is contained in Appendix B.




                                          18

APPENDIX               A




       Tables
  COmparing Carriers




       A-1
A-2
Ilcarrierl   I   somdilnes   I   Never




                  A-3
A-4
A-5
 L                  I                 4




 A                  I                 2



 D                  I                 2



 G                  I                 1



 v                  I                 1



 Q                  I                 1




Wrierfmldunitsinitiatedl mextemal   Umacbve
                                         “ siikmlardlL




                                A-6
   APPENDIX                  B




Health Care Financing Administration
        Response to Report




               B-1
. ,
>
/+
     ,* 5E*.mr ,,,



‘~
‘“+>\
  -%.,,a~%
                           DEPARTMENT   OF HEALTH    & HUMAN    SERVICES                      Health




                                                                                              The
                                                                                                       Care   Flnancrng




                                                                                                    Admln@rator
                                                                                                                          Admlnlstratlon




                                                                                              Washington,     D.C.    2(J20]



                     DATE:          SEP 26 1996



                     TO;           June Gibbs Brown
                                   Inspector General

                     FROM:         Bruce C. Vladec
                                   Administrator   e“

                     SUBJECT:      OffIce of Inspector General (OIG) Drafi Report: “Carrier Fraud Units”
                                   (OEI-05-94-O0470)

                     We reviewed the above-referenced repo~ concerning Medicare/Medicaid losses due to
                     fraud and abuse. The report identifies specific factors which contribute to and work
                     against successfid program integrity operations.

                     Our detailed comments are attached for your consideration. Thank you for the

                     opportunity to review and cornrnent on this report. Please contact us if you would like to

                     discuss our comments.



                     Attachment





                                                                  B-2

                                                           A) Ccm.un@s on
                                                              . cc        d Uni@_>>
           e of Qector   G4       (01                      cd.
                                    f?~l ---
                                          0594 00470)




HCFA should convene a Medicare and Medicaid fraud and abuse task force to pkm and
implement improvements in fi-aud unit operations. This would include: -

0      Clar@-ing goals and objectives for program integrity efforts.

o      Establishing guidelines for developing suspected fraud cases.

o      Developing a universal protocol for appropriately referring fraud and abuse cases.

o	    Coordinating data systems to ens&e that data are reliable and consistent across all
      entities in the fraud and abuse fighting network.

o	    Developing a training program designed to educate program integrity personnel on
      procedures, case referrals and best practices.




We concur. HCFA established the Program Integrity Group (PIG) to address fraud and

abuse issues within the Medicaid/Medicare programs. The goals of this group are

consistent with the report recommendations. The group’s overall responsibilities include

completing and monitoring the activities of short and long term projects, such as,

changing the conditions of participation for home health agencies, developing a strategic

plan with our law enforcement partners, clari&i.ng program integrity language contracts,

and determiningg how to better use data to reduce waste, iiau~ and abuse. In additioq

HCFA is working to address issues common to both programs. For example, Medicaid

Surveillance and Utilization Review Subsystems Units are (or are planned to be) users of

the recently developed Fraud Investigation database. The database ensures that

information on cases developed by Medicare carriers is shared across a number of

program and law enforcement organizations. Inputting fraud cases developed by the

Medicaid program would allow tracking both Medicare/Medicaid fraud cases on the same

system. The OIG suggests that there is a need to develop standard guidelines for the

development and refemal of fraud cases; however, the OIG has already developed such

guidelines. HCFA has provided these guidelines for case development and referral to the





                                            B-3

Page 2

carrier fraud units and contractors.   We encourage the use of these OIG guidelines by the
states.

OIG Recommendation

HCFA should continue to provide support and technical assistance to carri-ers so they can
emulate those carriers operating successful programs. This can include:

o	       Encouraging carrier commitments that result in increased resources to combat
         fraud and abuse such as investments in technology and people.

o        Suggesting ways of organizing a successful program integrity effort.

o	       Limiting the role of medical revidw units in program integrity to those cases
         involving issues of abuse, policy, coverage, and medical necessity.

o	       Rewarding carriers for identi&ing policy, procedure and systems Vulnerabilities
         and implementing corrective safeguards.

o	       Separating the budget for postpayment activity from the budget for claims
         processing and other front-end operations such as provider enrollment and
         provider relations.

HCFA Response


We concur. HCFA actively encourages carriers with effective fraud units to operate and

share best practices with other carrier fraud units and will continue to do so.

Additionally, each region has a Medicare Fraud Information Coordinator to coordinate

information about fraud cases, alerts, etc., to ensure the sharing of information between

regional office, central office, and other interested parties. Further, the OIG suggests that

the budgets for program safeguard activities be separated fkom that of other contractor

activities. This modification is a feature of pending legislation and HCFA supports it.

This legislatio~ if enacte~ woul~ over the next several years, signiilcantly increase the

resources devoted to these activities.





                                               B-4

Page 3

Technical Comments

o	 On page 8, the report states that a number of respondents complained that the current
   process for submitting and getting a fraud alert issued is so cumbersome and lengthy
   that it discourages them from initiating such efforts. The report indicated that a less
   formal vehicle is needed to allow them to communicate information quicker about
   problems they are experiencing. Formal procedures are also important to ensure that
   alerts are not disseminated to inappropriate parties or that inaccurate or misleading
   information is not distribute~ making later prosecution efforts difficult or impossible.

   HCFA already has a less formal procedure in place to allow carriers and
   intermediaries to quickly communicate information about potentkd fraud and abuse
   situations. In April of 1995, we implemented a process which allows carriers and
   intermediaries to prepare “Significant Investigation Reports” which are forwarded to
   HCFA Regional Offices for immediate distribution to all carriers and intermediaries
   and other appropriate parties.

o	 On page 10, the report states that “effective fraud units occupy a distinct and secure
   space within carrier operations” and notes the importance of protecting the
   confidentiality of sensitive work. This is a ve~ important element of fraud unit
   operations an~ for this reaso~ we included specific security procedures in the most
   recent revisions to the fraud sections of the carrier and intermed.ky manuals. These
   are identified in section 14032 of the Medicare Carriers Manual (MCM) and include
   sections related to the privacy of fraud operations, appropriate handling of sensitive
   informatio~ and other security guidelines that carriers are expected to follow to the
   greatest degree possible.

o	 On page 12, the report points out the importance of maintaining control over sensitive
   information. It notes that one successfi.d carrier utilizes employees outside the fraud
   unit to assist in fraud development and requires these employees to sign a statement
   that the information they gain will not be discussed or otherwise divulged to anyone.
   Ag@ we fhlly support this type of requirement and have included instructions to
   address this in our contractor manuals. Specifically, section 14032 E of the MCM
   states that persons hired to work in the fraud unit should be required to fill out a
   conflict of interest declaration as well as a conildentiality statement.




                                             B-5

